Department of Homeland Security
   Ofﬁce of Inspector General
  The State of Missouri's Management of State 

  Homeland Security Program and Urban Areas 

 Security Initiative Grants Awarded During Fiscal 

             Years 2005 through 2007 





OIG-10-33                                January 2010
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                     January 6, 2010

                                      Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

The attached report presents the results of the audit of the State of Missouri’s
management of State Homeland Security Program and Urban Areas Security Initiative
grants awarded during Fiscal Years 2005 through 2007. We contracted with the
independent public accounting firm Williams, Adley & Company, LLP to perform the
audit. The contract required that Williams, Adley & Company, LLP perform its audit
according to generally accepted government auditing standards. Williams, Adley &
Company, LLP’s report identifies three reportable conditions where State management of
the grant funds could be improved, resulting in three recommendations addressed to the
Administrator, Federal Emergency Management Agency. It also identifies a grant
management system as a best practice for possible use by other jurisdictions. Williams,
Adley & Company, LLP is responsible for the attached auditor’s report dated
December 4, 2009, and the conclusions expressed in the report.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

December 4, 2009

Ms. Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
U.S. Department of Homeland Security
245 Murray Drive, SW, Building 410
Washington, DC 20528

Dear Ms. Richards:

Williams, Adley & Company, LLP performed an audit of the State of Missouri’s
management of the Department of Homeland Security’s State Homeland Security Program
and Urban Areas Security Initiative grants for Fiscal Years 2005 through 2007. The audit
was performed in accordance with our Task Order No. TPD-FIG-BPA-07-0013-0070, dated
September 27, 2008. This report presents audit results and includes recommendations to
help improve the State’s management of the audited State Homeland Security Program and
Urban Areas Security Initiative grants.

We conducted our audit in accordance with applicable Government Auditing Standards, 2007
revision. The audit was a performance audit as defined by Chapter 1 of the Standards and
included a review and report of program activities with a compliance element. Although this
audit report comments on costs claimed by the state, we did not perform a financial audit, the
purpose of which would be to render an opinion on the State of Missouri’s financial
statements or funds claimed in the Financial Status Reports submitted to the Department of
Homeland Security.

We appreciate the opportunity to have conducted this audit. Should you have any questions,
or if we can be of any further assistance, please contact me on (202) 371-1397.

Sincerely,

Williams, Adley & Company, LLP




Jocelyn A. Hill
Partner



1250 H Street, NW, Suite 1150 � Washington, DC 20005 � (202) 371-1397 � Fax: (202) 371-9161
Table of Contents/Abbreviations
Executive Summary .......................................................................................................... 1 

Background ....................................................................................................................... 2 

Results of Audit ................................................................................................................ 7 

     State Grants Management Practices Were Generally Effective, But Require Some 

       Improvements ........................................................................................................... 7 


     Goals and Objectives Were Not Measurable and Achievable .................................... 7 

     Recommendation ........................................................................................................ 9 

     Management Comments and Auditors’ Analysis ..................................................... 10 


     Subgrantee On-Site Monitoring Needs Improvement .............................................. 10 

     Recommendation ...................................................................................................... 12 

     Management Comments and Auditors’ Analysis ..................................................... 12 


     State Withheld Portion of Local Units’ Funding Without Required Memorandums 

       of Understanding .................................................................................................... 13 

     Recommendation ...................................................................................................... 14 

     Management Comments and Auditors’ Analysis ..................................................... 15 


     Missouri’s Electronic Grants Management System May be a Best Practice ............ 15 


Appendices
     Appendix A:           Purpose, Scope, and Methodology ..................................................... 17 

     Appendix B:           Organization Charts ........................................................................... 21 

     Appendix C:           Management Comments to the Draft Report ..................................... 23 

     Appendix D:           Report Distribution ............................................................................ 25 


Abbreviations
     DHS                   Department of Homeland Security 

     FEMA                  Federal Emergency Management Agency 

     FY                    Fiscal Year            

     OIG                   Office of Inspector General 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                      Williams, Adley & Company, LLP completed an audit of the State
                      of Missouri’s management of State Homeland Security Program
                      and Urban Areas Security Initiative grants awarded during Fiscal
                      Years 2005 through 2007. The audit objective was to determine
                      whether the State distributed and spent Homeland Security Grant
                      Program funds strategically, effectively, and in compliance with
                      laws, regulations, and guidance. The audit included a review of
                      approximately $97 million in State Homeland Security Program
                      and Urban Areas Security Initiative grants awarded by the Federal
                      Emergency Management Agency to the State of Missouri.

                      Overall, the State did an efficient and effective job administering
                      the program requirements, distributing grant funds, and ensuring
                      that all available funds were used. The State ensured that funded
                      plans linked all hazards response capabilities to goals by requiring
                      subgrantees to identify the specific purposes and the goals the
                      grant funds would support. Additionally, the State distributed
                      funds and resources based on justifications submitted by
                      subgrantees. The State used reasonable methodologies for
                      assessing threats, vulnerabilities, and prioritized needs, and
                      measured response capabilities and performance using After
                      Action Reports. The State generally administered grants in
                      compliance with grant guidance and regulations.

                      Improvements are needed in the State’s management of grants to
                      develop measurable and achievable goals and objectives, enhance
                      subgrantee monitoring, and document instances when funds were
                      withheld on behalf of subgrantees. We nonetheless identified as a
                      best practice the State’s use of an electronic grants management
                      system that should be considered for sharing with other states. We
                      are making three recommendations to the Federal Emergency
                      Management Agency which, if implemented, should help strengthen
                      program management, performance, and oversight. Federal
                      Emergency Management Agency and State officials did not agree
                      with the first recommendation, but concurred with the remaining
                      two. Based on these comments and State officials’ written response
                      to the recommendations, included as Appendix C, we revised the
                      recommendation to encourage future revisions to the State’s strategy.

           The State of Missouri’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                              Page 1
Background
                    The Homeland Security Grant Program is a federal assistance grant
                    program administered by the U.S. Department of Homeland
                    Security (DHS), Grant Programs Directorate within the Federal
                    Emergency Management Agency (FEMA). The current Grant
                    Programs Directorate, hereafter referred to as FEMA, began with
                    the Office of Domestic Preparedness, which was transferred from
                    the Department of Justice to DHS in March 2003. The Office of
                    Domestic Preparedness was subsequently consolidated into the
                    Office of State and Local Government Coordination and
                    Preparedness which, in part, became the Office of Grants and
                    Training, and which subsequently became part of FEMA.

                    Although the grant program was transferred to DHS, applicable
                    Department of Justice grant regulations and legacy systems were
                    still used, as needed, to administer the program. For example,
                    through Fiscal Year (FY) 2008 the Office of Justice Programs’
                    Grants Management System was used to receive grantee
                    applications and to administer the award and reporting processes.
                    Also, prior to the transfer, the State Administrative Agency entered
                    payment data into the Office of Justice Programs’ Phone Activated
                    Paperless Request System, which was a drawdown payment
                    system for grant funds. That payment system was replaced in
                    April 2007 by FEMA’s Payment and Reporting System, which
                    allows grantees to make payment requests and complete and
                    transmit their quarterly Financial Status Reports online.

                    Homeland Security Grant Program

                    The Homeland Security Grant Program provides federal funding to
                    help states and local agencies enhance their capabilities to prevent,
                    deter, respond to, and recover from threats or acts of terrorism.
                    The program encompasses several interrelated federal grant
                    programs that together fund a range of preparedness activities,
                    including planning, organization, equipment purchase, training,
                    and exercises, as well as management and administration costs.
                    Depending on the fiscal year, the program included some or all of
                    the following:

                    �	 State Homeland Security Program provides financial
                       assistance directly to each of the states and territories to
                       prevent, respond to, and recover from acts of terrorism. The
                       program supports the implementation of the State Homeland


         The State of Missouri’s Management of State Homeland Security Program and 

     Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                            Page 2
                    Security Strategy to address the identified planning, equipment,
                    training, and exercise needs.

               �	 Urban Areas Security Initiative provides financial assistance
                  to address the unique planning, equipment, training, and
                  exercise needs of high risk urban areas, and to assist them in
                  building an enhanced and sustainable capacity to prevent,
                  respond to, and recover from threats or acts of terrorism.
                  Allowable costs for the urban areas are consistent with the
                  State Homeland Security Program and funding is expended
                  based on the Urban Area Homeland Security Strategies.

               �	 Law Enforcement Terrorism Prevention Program provides
                  law enforcement communities with funds to support the
                  following prevention activities: information sharing to
                  preempt terrorist attacks, target hardening to reduce
                  vulnerability of selected high value targets, recognition and
                  mapping of potential or developing threats, counterterrorism
                  and security planning, interoperable communications,
                  interdiction of terrorists before they can execute a threat, and
                  intervention activities that prevent terrorists from executing a
                  threat. These funds may be used for planning, organization,
                  training, exercises, and equipment.

               �	 Citizen Corps Program is the department’s grass-roots
                  initiative to actively involve all citizens in hometown security
                  through personal preparedness, training, and volunteer service.
                  Funds are used to support Citizen Corps Councils with efforts
                  to engage citizens in preventing, preparing for, and responding
                  to all hazards, including planning and evaluation, public
                  education and communication, training, participation in
                  exercises, providing proper equipment to citizens with a role in
                  response, and management of Citizen Corps volunteer
                  programs and activities.

               �	 Metropolitan Medical Response System Program supports
                  jurisdictions in enhancing and sustaining an integrated,
                  systematic, mass casualty incident preparedness program to
                  respond to mass casualty events during the first hours of a
                  response. This includes the planning, organizing, training, and
                  equipping concepts, principles, and techniques, which enhance
                  local jurisdictions’ preparedness to respond to the range of
                  mass casualty incidents – from chemical, biological,
                  radiological, nuclear, and explosive events to epidemic


    The State of Missouri’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                       Page 3
                    outbreaks, natural disasters, and large-scale hazardous 

                    materials incidents. 


               �    Emergency Management Performance Grant Program
                    funds are used to support comprehensive emergency
                    management at the state and local levels and to encourage the
                    improvement of mitigation, preparedness, response, and
                    recovery capabilities for all hazards. DHS is responsible for
                    leading and supporting the nation in a comprehensive, risk-
                    based, all-hazards emergency management program, and these
                    performance grant funds are a primary means of ensuring the
                    development and maintenance of such a program. Funds may
                    also be used to support activities for managing consequences of
                    acts of terrorism.

               State Administrative Agency

               State governors appoint a State Administrative Agency to
               administer the Homeland Security Grant Program. The State
               Administrative Agency is responsible for managing the grant
               program in accordance with established federal guidelines and is
               also responsible for allocating funds to local, regional, and other
               state government agencies.

               The Missouri State Emergency Management Agency, a division of
               the Department of Public Safety/Office of Homeland Security, is
               the designated State Administrative Agency of Missouri and
               provides guidance, direction, and coordination in mobilizing,
               organizing, and preparing Missouri for acts of terrorism and man-
               made or natural disasters. The State Administrative Agency
               administers the Homeland Security Grant Program at the direction
               of the Missouri Homeland Security Advisory Council, based on
               recommendations from the Regional Homeland Security Oversight
               Committees. The overall responsibility for Missouri’s Homeland
               Security Program rests with the Homeland Security Advisor, who
               is also the Director of the Department of Public Safety – a Cabinet
               level official. The Missouri Department of Public Safety and State
               Emergency Management Agency’s organization structures are
               depicted in the organization charts in Appendix B.

               The State of Missouri is divided into nine Response Regions and
               two Urban Areas Security Initiative areas, Kansas City and
               St. Louis, which serve as the jurisdictions for the State’s strategy.
               Regional Planning Commissions within the 11 regional areas
               function as local political subdivisions and determine grant funding

    The State of Missouri’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                       Page 4
               priorities within the regions. The Homeland Security Advisory
               Council works closely with the Urban Areas Security Initiative
               sites to support their needs, synchronize strategies, and establish
               consistent priorities across Missouri.

               The State Administrative Agency procured the services of an
               outside consulting firm to provide technical support and advisory
               services to assist the State in developing its Homeland Security
               Assessment and Strategy program.

               Grant Funding

               The State of Missouri received approximately $121 million in
               funds from the Homeland Security Grant Program during
               FYs 2005 through 2007. As part of this program, the State
               received $45.8 million in State Homeland Security Program grants
               and $51.3 million in Urban Areas Security Initiative grants.
               During that timeframe, the State Administrative Agency awarded
               subgrants to first responders as follows:

               �	 2005: 594 first responder subawards distributed throughout
                  110 counties, 170 cities, 10 state agencies, and 2 urban areas;
               �	 2006: 224 first responder subawards distributed throughout
                  91 counties, 71 cities, 8 state agencies, 9 regions, and 2 urban
                  areas; and
               �	 2007: 56 first responder subawards distributed throughout
                  22 counties, 7 cities, 8 state agencies, 9 regions, and 2 urban
                  areas.

               Table 1 shows a breakdown of the grant funds by year and funded
               activity. Note that not all funded activities were part of the
               Homeland Security Grant Program during each of the fiscal years.




    The State of Missouri’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                       Page 5
                                                      Table 1

                                  Missouri Homeland Security Grant Awards
                                       Fiscal Years 2005 through 2007

                                                Grant Programs (‘000s)
                                          2005               2006            2007
                                       Homeland           Homeland        Homeland
                 Funded Activity        Security           Security        Security          Total
                                         Grant              Grant           Grant
                                       Program            Program         Program
                State Homeland
                                       $ 20,289           $     17,980    $     7,490    $ 45,759
                Security Program
                Urban Areas
                                       $ 15,254           $     18,440    $    17,610    $ 51,304
                Security Initiative
                Law Enforcement
                Terrorism
                                       $    7,378         $     5,610     $     5,350    $ 18,338
                Prevention
                Program
                Citizen Corps
                                       $        257       $      366      $       277    $      900
                Program
                Metropolitan
                Medical Response       $        455       $      465       $      516    $     1,436
                System Program
                Emergency
                Management                                 Not              Not
                                       $    3,318                                        $     3,318
                Performance                              Applicable       Applicable
                Grant Program
                      Total            $ 46,951           $ 42,861         $ 31,243      $ 121,055

               Williams, Adley & Company, LLP completed an audit of the State
               of Missouri’s management of State Homeland Security Program
               and Urban Areas Security Initiative grants awarded during
               FYs 2005 through 2007. The objective of this audit was to
               determine whether the State distributed and spent Homeland
               Security Grant Program funds strategically, effectively, and in
               compliance with laws, regulations, and guidance. Nine
               researchable questions, provided by the DHS Office of Inspector
               General (OIG), established the framework for the audit. The
               researchable questions were related to the State Administrative
               Agency’s planning, management, and evaluations of grant
               activities. Appendix A provides additional details on the purpose,
               scope, and methodology of this audit, including the nine
               researchable questions.




    The State of Missouri’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                       Page 6
Results of Audit

     State Grants Management Practices Were Generally Effective,
     But Require Some Improvements
            Overall, the State did an efficient and effective job of administering the
            program requirements, distributing grant funds, and ensuring that all of the
            available funds were used. The State ensured that funded plans linked all
            hazards response capabilities to goals by requiring subgrantees to identify
            the specific purposes and the goals the grant funds would support.
            Additionally, the State distributed funds and resources based on
            justification submitted by subgrantees describing how their project plans
            would support specific goals within the State’s strategy. The State used
            reasonable methodologies for assessing threats, vulnerabilities, and
            prioritized needs, and measured response capabilities and performance
            using After Action Reports. Finally, the State generally administered
            grants in compliance with grant guidance and regulations.

            However, improvements are needed in developing measurable and
            achievable goals and objectives, monitoring subgrantees, and documenting
            instances when funds are withheld on behalf of subgrantees.


     Goals and Objectives Were Not Measurable and Achievable
            The State Administrative Agency’s strategic goals and objectives did not
            provide a basis for measuring progress during FYs 2005 through 2007.
            Although FEMA approved the State’s goals, objectives, and
            implementation steps, FEMA officials indicated there was room for
            improvement. We noted, as shown in the following examples, that the
            objectives did not specifically identify what was to be achieved or
            accomplished, nor did they provide a standard for comparison:




          The State of Missouri’s Management of State Homeland Security Program and 

      Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                             Page 7
        Goal 1: Ensure local and state resources are appropriately prepared to detect, deter,
        prevent, and respond to a chemical, biological, radiological, nuclear, and explosive
        event to protect people, infrastructure, and the environment.

        Objective 1.3: Enhance transportation security associated with Missouri
        transportation infrastructure including roads, bridges, tunnels, railways, pipelines,
        airports, and river ports by October 2006, assuming funds, uses of funds, and federal
        guidance are available.

                 Implementation Steps:

                     �    1.3.a: Establish a working group to review transportation-critical
                          asset inventory and potential threats.

                     �    1.3.b: Develop a procedure to systematically improve chemical,
                          biological, radiological, nuclear, and explosive event detection
                          and deterrence methodologies at transportation targets.

                     �    1.3.c: Develop countermeasures for Critical Infrastructure and
                          Key Resources consistent with national critical infrastructure
                          protection efforts.


        Goal 7: Prepare and Prevent/Response and Recovery - Enhance Missouri’s Local and
        State-Commissioned Law Enforcement Departments to ensure they are appropriately
        prepared to detect, deter, prevent, and respond to a Chemical, Biological,
        Radiological, Nuclear and Explosive incident to protect people, infrastructure, and the
        environment.

        Objective 7.2: Provide assistance in the protection of critical assets and infrastructure
        by October 2006.

                 Implementation Steps:

                     �    7.2.b: Conduct a vulnerability assessment of Capitol Complex and
                          implement security measures.

                     �    7.2.d: Develop and review critical assets, security buffer zone
                          plans.

                     �    7.2.f: Implement the Buffer Zone Protection Program.

                     �    7.2.i: Working with critical asset owners/operators, recommend and
                          work to achieve installation of hardening measures at select high
                          profile targets.


      In addition to not being measurable, the objective in the first example may
      not be achievable or realistic because, as written, it is contingent on the
      availability of federal funding and guidance.

      Department of Homeland Security State and Urban Area Homeland
      Security Strategy Guidance on Aligning Strategies with the National

    The State of Missouri’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                        Page 8
      Preparedness Goal, July 22, 2005, states that an objective sets a target
      level of performance over time expressed as a tangible, measurable
      objective, against which actual achievement can be compared, including a
      goal expressed as a quantitative standard, value, or rate. An objective
      should be:

      �	 Specific, detailed, particular, and focused – helping to identify what is
         to be achieved and accomplished;
      �	 Measurable – quantifiable, providing a standard for comparison, and
         identifying a specific achievable result;
      �	 Achievable – the objective is not beyond a State, region, jurisdiction,
         or locality’s ability;
      �	 Results-oriented – identifies a specific outcome; and
      �	 Time-limited – a target date exists to identify when the objective will
         be achieved.

      State Administrative Agencies or Urban Area Working Groups should
      assess the quality of the strategy’s objectives to determine whether the
      measures are meaningful in the context of a specific action item or
      preparedness effort, the measurement methodology is sound, and the
      measures can be verified with reliable data. Only if the objectives meet
      these criteria should they be included in the strategy.

      According to Missouri State officials, the State was still developing its
      internal grants management program during FYs 2005 through 2007, and
      did not have sufficient staffing, technology, and other expertise required to
      measure progress related to strategic goals and objectives.

      Without goals and objectives that are specific, quantifiable, and time
      sensitive, the State Administrative Agency is not able to measure progress
      towards achieving its goals, thereby hindering its ability to evaluate the
      effectiveness of grant expenditures on first responder capabilities.

      Recommendation
               We recommend that the Administrator, Federal Emergency
               Management Agency, encourage the State Administrative Agency
               to:

               Recommendation #1: Continue to improve the Statewide
               Strategy by ensuring that goals and objectives are measurable and
               achievable.




    The State of Missouri’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                       Page 9
       Management Comments and Auditors’ Analysis
                FEMA verbally did not concur with the recommendation as
                presented in the draft report, which mandated a revision to the
                goals and objectives. FEMA explained that in spite of noted room
                for improvement, FEMA approved the goals and objectives
                presented by the State of Missouri because they generally met the
                requirements of the Department of Homeland Security guidelines.
                FEMA suggested that the recommendation be revised to reflect
                that it had approved the State’s strategy, and that the
                recommendation should encourage further improvements to the
                strategy rather than mandate changes.

                The State Administrative Agency provided verbal and written
                disagreement with the recommendation presented in the draft
                report for the same reason as stated by FEMA. In its written
                response, the State added that the State’s strategy was revised in
                fiscal year 2008 and submitted to DHS in fiscal year 2009 with no
                issues noted.

                The auditor revised the recommendation as presented in the draft
                report so that it focuses on future improvement of the State’s
                strategy with respect to making goals and objectives measurable
                and achievable. With the recent submission of a revised strategy,
                we believe that the State Administrative Agency is working to
                address the recommendation.

                The Administrator, Federal Emergency Management Agency,
                needs to provide corrective actions for the recommendation and a
                plan to implement them within 90 days.


Subgrantee On-Site Monitoring Needs Improvement
       During fiscal years 2005 through 2007, the State Administrative Agency
       did not perform on-site subgrantee monitoring of the State Homeland
       Security Program and Urban Areas Security Initiative grants to ensure
       subgrantees’ performance was in accordance with program goals, and that
       subgrantees were administering federal awards in compliance with federal
       and state requirements. The State Administrative Agency’s lack of
       effective on-site monitoring of Homeland Security Grant Programs was
       previously reported in the State of Missouri Single Audits for Years Ended
       June 30, 2005, 2006, and 2007, respectively.



     The State of Missouri’s Management of State Homeland Security Program and 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                       Page 10
      According to the DHS Office of Domestic Preparedness Financial
      Management Guide, Chapter 4, dated January 2006, a recipient has full
      responsibility for the conduct of the project or activity supported and for
      the results achieved. The recipient must monitor the performance of the
      project to assure adherence to performance goals, time schedules, or other
      requirements as appropriate to the project or the terms of the agreement.
      The recipient is responsible for monitoring the activities of any sub-
      recipients and their compliance with grant requirements.

      Code of Federal Regulation Title 28 § 66.40, Monitoring and reporting
      program performance, requires grantees to establish goals and measure
      and report grant program performance. These requirements also extend to
      subgrantees.

      Due to inadequate staff, the State Administrative Agency did not conduct
      its own structured or planned site visits to monitor the use of equipment,
      maintenance of documentation to support expenditures, and achievement
      of other program goals. However, the State did accompany FEMA
      officials during FEMA monitoring visits. FEMA monitoring visits to
      Missouri State Homeland Security Program and Urban Areas Security
      Initiative subgrantees during fiscal years 2006 and 2007 focused primarily
      on program goals and strategies, and plans to achieve stated goals. The
      State Administrative Agency only performed desk reviews prior to fiscal
      year 2008.

      In January 2008, the State Administrative Agency implemented a policy
      for monitoring State Homeland Security Program subgrantees that
      included development of an on-site monitoring checklist, and a
      requirement that grant managers submit their proposed plans and schedule
      annual on-site monitoring visits. However, the policy did not specify the
      quantifiable goals or criteria for determining the effectiveness of each
      grant specific to each grant year. Also, the policy did not indicate the
      method for selecting subgrantees to be visited, the number or percentage
      to be visited each year, or whether the visits will be conducted on a
      rotation basis.

      In March 2008, the State Administrative Agency began on-site monitoring
      of the FY 2005 to 2007 State Homeland Security Program grants.
      However, the number of monitoring visits conducted was inadequate.
      Specifically, during FY 2005, the State Administrative Agency awarded
      Homeland Security grants to 594 first responders distributed throughout
      110 counties, 170 cities, 10 state agencies, and 2 urban areas, but only
      performed 27 on-site monitoring visits. No formal on-site monitoring was
      planned or performed for the Urban Areas Security Initiative grant
      programs in Kansas City and St. Louis.

    The State of Missouri’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                      Page 11
      Without effective subgrantee monitoring, the State cannot ensure that
      program goals are being met and assets purchased are used as intended.
      Also the State cannot detect noncompliance with grant requirements.

      Recommendation
               We recommend that the Administrator, Federal Emergency
               Management Agency, require that the State Administrative
               Agency:

               Recommendation #2: Revise the current State Homeland
               Security Grant monitoring program policy to include quantifiable
               goals or criteria to determine the effectiveness of each grant
               specific to each grant year. The policy should indicate the method
               for selecting subgrantees to be visited, and the number or
               frequency of monitoring visits each year for both State Homeland
               Security Program grants and Urban Areas Security Initiative grants
               in Kansas City and St. Louis.

      Management Comments and Auditors’ Analysis
               FEMA verbally concurred with the recommendation.

               The State Administrative Agency provided verbal and written
               agreement with the recommendation; however, the Agency
               requested that we revise the title of the audit finding, as presented
               in the draft report, to acknowledge that although some on-site
               monitoring was performed, it still needs improvement. According
               to the State, fiscal year 2005 grants could not have been monitored
               during calendar year 2005 because the first draw downs for the
               grant did not occur until calendar year 2006, but the State has since
               monitored fiscal year 2005 grants. The State will review its
               monitoring policies annually, including on-site monitoring, and
               will make appropriate adjustments accordingly.

               We believe that the State Administrative Agency has taken steps to
               address the intent of the recommendation.

               The Administrator, Federal Emergency Management Agency,
               needs to provide corrective actions for the recommendation and a
               plan to implement them within 90 days.




    The State of Missouri’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                      Page 12
State Withheld Portion of Local Units’ Funding Without
Required Memorandums of Understanding

       During FYs 2005 through 2007, the State Administrative Agency withheld
       a total of $3,628,080 in State Homeland Security Program grant funds
       from local units without the required written memorandums of
       understanding. The Program Guidelines and Application Kits for each of
       the fiscal years required the State to provide at least 80% of the total grant
       program amount to local units of governments. The State of Missouri,
       however, withheld grant funds each year from the initial 80% allotted to
       the local jurisdictions in order to centrally provide training and exercises
       for the local units of government. By withholding a portion of the grant
       funds to provide training and exercises for local units of government, the
       State obligated less than the required 80% to local units during FYs 2005
       through 2007 without proper supporting documentation. Table 2 below
       shows the amount of grant funds withheld by the State on behalf of local
       units.

                                               Table 2

                           Missouri Homeland Security Grant Awards
                                Fiscal Years 2005 through 2007

                        Grant Funds Withheld From Local Units (‘000s)
                                                                     Amount
                            Total                      Amount        Withheld
                                                                                Percentage
            Grant           Grant         80% of       Obligated    By State on
                                                                                Obligated to
           Program         Awarded        Grant        to Local      Behalf of
                                                                                Local Units
                            State                        Units      Local Units
         FY 2005
         State
         Homeland           $20,289       $16,231       $14,703        $1,528             72%
         Security
         Program
         FY 2006
         State
         Homeland           $17,980       $14,384       $12,384        $2,000             69%
         Security
         Program
         FY 2007
         State
         Homeland           $7,490         $5,992        $5,892        $ 100              79%
         Security
         Program
             Total          $45,759       $36,607       $32,979        $3,628




     The State of Missouri’s Management of State Homeland Security Program and 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                       Page 13 

      According to the Department of Homeland Security, Office of State and
      Local Government Coordination and Preparedness Program Guidelines
      and Application Kit for FY 2005, and the FY 2006 Homeland Security
      Grant Program Guidance, the state may retain some or all of the local unit
      of government or urban area’s allocation of grant funds for expenditures
      made by the state on behalf of the local unit of government or urban area.
      States holding grant funds on behalf of local units of government or urban
      areas must enter into a formal Memorandum of Understanding with the
      local unit of government or urban area specifying the amount of funds to
      be retained by the state and the intended use. This agreement must be kept
      on file with the State Administrative Agency.

      During FY 2005, when the State had approximately 1,300 subgrantees, the
      State Administrative Agency did not have adequate staffing to ensure that
      written memorandums of understanding were prepared for subgrantee
      funds withheld. During FYs 2006 and 2007, the State’s newly established
      regionalization framework was in place and included use of regional
      planning commissions that administered and allocated Homeland Security
      Program funds to the regional local jurisdictions. According to Missouri
      State officials, State law does not require a memorandum of understanding
      when the State withholds funds from the regional planning commissions.
      FEMA has not granted Missouri a waiver from preparing memorandums
      of understanding for funds withheld from local jurisdictions and indicated
      that State contract laws do not preclude the use of memorandums of
      understanding, which are required by grant guidance.

      Without written memorandums of understanding, we cannot determine
      whether local units of government gave authorization to the State to spend
      a certain portion of their grants funds on training and exercises.
      Additionally, we cannot determine whether the intent of Congress to put
      control of funds with the local governments was satisfied.

      Recommendation
               We recommend that the Administrator, Federal Emergency
               Management Agency, require that the State Administrative
               Agency:

               Recommendation #3: Adhere to grant program guidance that
               requires the State to prepare a memorandum of understanding for
               funds withheld by the State on behalf of local units of government
               and to maintain such documentation at the State Administrative
               Agency.



    The State of Missouri’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                      Page 14
       Management Comments and Auditors’ Analysis
                FEMA verbally concurred with the recommendation and said it
                will continue to work with the State Administrative Agency to
                ensure that it fully understands the policy regarding Memorandums
                of Understanding.

                The State Administrative Agency provided verbal and written
                agreement with the recommendation. The State Administrative
                Agency indicated that beginning with fiscal year 2009 grant
                awards, it has included revised language in its grant awards to
                subrecipients. Based on the revision, the State may retain a portion
                of local pass-through funds for Homeland Security programs that
                are mutually beneficial to all regions across the State.

                We believe that the State Administrative Agency has taken steps to
                address the intent of the recommendation, but further action will be
                needed to fully implement the recommendation.

                The Administrator, Federal Emergency Management Agency,
                needs to provide corrective actions for the recommendation and a
                plan to implement them within 90 days.


Missouri’s Electronic Grants Management System May be a Best
Practice
       The Missouri State Administrative Agency implemented a grants
       management tool known as the Electronic Grants Management System
       (the System) in 2005. The System has helped the State of Missouri
       overcome challenges in its critical mission to enhance preparedness and
       response capabilities. The System efficiently tracks and accounts for grant
       funds, links funds distribution to strategic goals and objectives, and
       accounts for equipment in accordance with applicable Federal Acquisition
       Regulations. Additionally, the System allows the State to integrate
       administration of Homeland Security Grant Programs with existing
       information systems enabling critical resource data sharing.

       Users of the Electronic Grants Management System can:

       �	 Track and display distribution of equipment, training, and other
          resources;
       �	 Develop resource usage and sharing plans across jurisdictions;
       �	 Display equipment and training provided in each jurisdiction;
       �	 Estimate and assess equipment maintenance needs statewide;
     The State of Missouri’s Management of State Homeland Security Program and 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                       Page 15
      �	 Audit selected jurisdictions based on the State Homeland Security
         Program and Urban Areas Security Initiative grants disbursements and
         reimbursements data; and
      �	 Prepare planning budgets.

      In summary, the System provides a comprehensive tool that removes
      traditional barriers to effective grants management and can be customized
      to the users’ specifications. We believe the Administrator, Federal
      Emergency Management Agency, should consider evaluating the
      Electronic Grants Management System for potential use by other
      jurisdictions in their grants management efforts.




    The State of Missouri’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                      Page 16
Appendix A
Purpose, Scope, and Methodology

                       The purpose of this audit was to determine whether the State of
                       Missouri distributed and spent State Homeland Security Program
                       and Urban Areas Security Initiative grant funds strategically,
                       effectively, and in compliance with laws, regulations, and
                       guidance. The goal of the audit was to identify problems and
                       solutions that can help the State of Missouri better prepare for and
                       respond to threats and acts of terrorism. The audit further enabled
                       us to answer the following nine researchable questions:

                       �    Were measurable goals developed from plans?
                       �    Do funded plans link all hazards response capabilities to goals?
                       �    Were funds and resources distributed based on goals?
                       �    Does the State accurately measure risk?
                       �    Does the State measure response capabilities?
                       �    Can the State demonstrate improved performance?
                       �    Were grants administered compliantly?
                       �    Did the State monitor grant programs?
                       �    What innovative practices can be used by other states?

                       The scope of the audit included the State Homeland Security
                       Program and Urban Areas Security Initiative Grant programs for
                       Fiscal Years 2005, 2006, and 2007, described in the Background
                       section of this report.

                       The audit methodology included work at FEMA Headquarters,
                       State of Missouri offices, and Kansas City and St. Louis offices
                       responsible for grants management, and various subgrantee
                       locations. To achieve our audit objectives we analyzed data,
                       reviewed documentation, and interviewed key state and local
                       officials directly involved in the management and administration of
                       the State of Missouri’s State Homeland Security Program and
                       Urban Areas Security Initiative. We conducted 31 visits to
                       13 counties within 8 of the 9 state regions, 8 cities, and 8 state
                       agencies in order to determine whether program grant funds were
                       expended according to grant requirements and State-established
                       priorities.

                       We conducted site visits to the following first responders and local
                       jurisdictions:

                       �    Region A
                             o Sedalia/Pettis County Homeland Security Response Team
                             o Pettis County Sheriff
                             o Kansas City Urban Area Security Initiative

            The State of Missouri’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                              Page 17
Appendix A
Purpose, Scope, and Methodology

                              o	 Tri District - Homeland Security Response Team
                              o	 Lee Summit - Homeland Security Response Team
                              o	 Kansas City - Homeland Security Response Team

                       �	 Region B
                           o	 Audrain County Sheriff
                           o	 Kirkville/Adair Homeland Security Response Team
                           o	 Mark Twain Regional Planning Commission
                           o	 Hannibal - Homeland Security Response Team

                       �	 Region C
                           o	 Pike County
                           o	 Saint Louis City Urban Area Security Initiative
                           o	 Homeland Security Response Team – Franklin County

                       �	 Region D
                           o	 Springfield/Greene Homeland Security Response Team
                           o	 Saint Clair County
                           o	 Branson/Taney County Homeland Security Response
                               Team
                           o	 Taney County
                           o	 Neosho - Homeland Security Response Team
                           o	 Joplin - Homeland Security Response Team

                       �	 Region F
                           o	 Miller County Sheriff
                           o	 Jefferson City/Cole County Homeland Security Response
                               Team
                           o	 Camden County Homeland Security Response Team
                           o	 Columbia Homeland Security Response Team
                           o	 Boone County Fire Protection District
                           o	 Boone County Sheriff
                           o	 Boone County Homeland Security Response Team

                       �	 Region G
                           o	 West Plains Homeland Security Response Team

                       �	 Region H
                           o	 North West Missouri Hazmat Homeland Security
                               Response Team
                           o	 Saint Joseph Homeland Security Response Team
                           o	 Chillicothe Homeland Security Response Team
                           o	 Clinton County Sheriff



            The State of Missouri’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                              Page 18
Appendix A
Purpose, Scope, and Methodology

                       �    Region I
                             o Mermac Regional Planning Commission

                       �    State Agencies
                              o Missouri Department of Natural Resources
                              o Missouri Department of Agriculture
                              o Missouri Office of Administration
                              o Missouri State Highway Patrol
                              o Missouri Information Analysis Center
                              o Missouri Water Patrol
                              o Missouri Division of Fire Safety
                              o Missouri Capitol Police

                       At each location, we interviewed responsible officials, reviewed
                       documentation supporting the State and subgrantee’s management
                       of the awarded grant funds, and physically inspected some of the
                       equipment procured with the grant funds. We conducted our
                       fieldwork between February 2009 and April 2009 in accordance
                       with Government Auditing Standards as prescribed by the
                       Comptroller General of the United States (Yellow Book 2007
                       Revision). Those standards require that we plan and perform the
                       audit to obtain sufficient, appropriate evidence to provide a
                       reasonable basis for our findings and conclusions based on our
                       audit objectives. We believe that the evidence obtained provides a
                       reasonable basis for our findings and conclusions based on our
                       audit objectives.

                       Although this audit included a review of costs claimed, we did not
                       perform a financial audit of those costs. This was a performance
                       audit as defined by Chapter 1 of the Standards and it included a
                       review and report of program activities with a compliance element.

                       Williams, Adley & Company, LLP was not engaged to and did not
                       perform a financial statement audit, the objective of which would
                       be to express an opinion on specified elements, accounts, or items.
                       Accordingly, we were neither required to nor expressed an opinion
                       on the costs claimed for the grant programs included in the scope
                       of the audit. Had we been required to perform additional
                       procedures or conduct an audit of financial statements in
                       accordance with generally accepted auditing standards, other
                       matters might have come to our attention that would have been
                       reported. This report relates only to the programs specified and
                       does not extend to any financial statements of the State of
                       Missouri.


            The State of Missouri’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                              Page 19
Appendix A
Purpose, Scope, and Methodology

                       While the audit work was performed and the report was prepared
                       under contract, the audit results are being reported by the DHS
                       Office of the Inspector General to appropriate FEMA and State of
                       Missouri officials.




            The State of Missouri’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                              Page 20
Appendix B
Organization Charts




            The State of Missouri’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                              Page 21
Appendix B
Organization Charts



       Missouri State Emergency Management Agency 


                                                            Division
                                                            Director




                                                                          Public
                                            Admin. Office
                                                                       Information
                                            Support Asst
                                                                           Coor




                                                        Designated
                                                       Principal Asst




              Public         Public       Public            Fiscal &                      Public       Public
                                                                             Statewide
              Safety         Safety       Safety              Adm                         Safety       Safety
                                                                             Volunteer
             Manager        Manager      Manager            Manager                      Manager      Manager
                                                                               Coor
             Band 2         Band 2       Band 2             Band 2                       Band 2       Band 2




  Disaster             Planning




                 The State of Missouri’s Management of State Homeland Security Program and 

             Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                                    Page 22
Appendix C
Management Comments to the Draft Report




           The State of Missouri’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                             Page 23
Appendix C
Management Comments to the Draft Report




           The State of Missouri’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                             Page 24
Appendix D
Report Distribution

                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff for Operations
                       Chief of Staff for Policy
                       Deputy Chiefs of Staff
                       General Counsel
                       Executive Secretary
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Office of Policy
                       Assistant Secretary for Office of Public Affairs
                       Assistant Secretary for Office of Legislative Affairs

                       Federal Emergency Management Agency

                       Administrator
                       Assistant Administrator, Grant Programs Directorate
                       Federal Emergency Management Agency Audit Liaison
                       Grant Programs Directorate Audit Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




            The State of Missouri’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2005 through 2007 


                                              Page 25 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
